HHS/OIG-Audit--"Review of Washington State Medicaid Laboratory Services,
(A-10-95-00002)"
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Review of Washington State Medicaid Laboratory Services," (A-10-95-00002)
March 6, 1996
Complete Text of Report is available in PDF format
(123 KB). Copies can also be obtained by contacting the Office of Public Affairs
at 202-619-1343.
EXECUTIVE SUMMARY:
This final report provides the results of our review of State agency controls
over Medicaid payments for clinical laboratory services. The review disclosed
that, although the State agency had numerous edits for detecting duplicate and
other inappropriate billings, additional edits were needed in the Medicaid claims
processing system. The review identified ovepayments related to laboratory tests
that were inappropriately billed separately when they should have been billed
only as part of a group of tests (bundled services). We estimated that, if the
State agency were to implement additional edits to detect problems with bundling
or duplication, about $1.8 million in Federal and State funds could be saved
for the Medicaid program over a period of 5 years.